Record Press Inc., 229 West 36th Street, New York, N.Y. 10018 •
Tel: (212) 619-4949• Fax No. (212) 608-3141

STATE OF NEW YORK.

85433
AFFIDAVIT OF SERVICE

SS:
COUNTY OF NEW YORK

Howard Daniels being duly sworn. deposes and says that deponent is not party to the action. and is over 18 years of age.
That on the 8th day of December 2020 deponent served 3 copies of the within
BRIEF IN OPPOSITION

upon the attorneys at the addresses below. and by the following method:
BY FEDERAL EXPRESS NEXT BUSINESS DAY DELIVERY

Jeffrey B. Wall
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, District of Columbia 20530
(202) 514-2217

Attorneys for Petitioners

I. Howard Daniels. declare under penalty of perjury under the laws of the United States of America that the foregoing is true and
correct. executed on December S. 2020. pursuant to Supreme Court Rule 28.S(c). All parties required to be served. have been
served.

d~--J d) ~ ,
Howard Daniels
Sworn to me this

December S. 2020
Nadia R. Oswald Hamid
Notary Public, State of New York
No. 010S6101366
Qualified in Kings County

Com · ·onEx iresNovembe\ 10(

Notary Public

Case Name: Immigration and Customs Enforcement v. Padilla
Docket/Case No. 20-234

